 ,
. I
:(': ,.,
't   T
      ••




                               NA'fIONAb M1I..ROAIJ ~A~~IilN0~R CORPORATION
                                    OFFICE OF THill IN&WECTOR ffiENEAAl,

                                       INVESTIC;1ATIV..8.COSIIIIG RepORT


             'i'IIL,E: Theft                                                  CA./;lg NUMBF-Il: 07-136

             DATil! OflIUi~OIU: May 6, 2008
             RElPOfrr ~REPARI:D BY:

            WAQIWBOUND
            The Office of Inspector General ("DIG'), Offloo of Investigations ('01") r"looived an
            aliosatlon           tho eale of an Acela Air Hom on tile Intemet omlGa ~Ite "eBay".
                 01                                                      _ _
                                                                                    ~
                                                                                               . ' .. .   /.   .'        .. .. '".
                                                                                                                          '          ,   .
            §Y.M~!AJ3.Y   OF INVMTIGATION
            1. The 01 verified thai a brand /lew Acela Air Hom was sold on eSay by_ using the
            eElny sales
            2, The 01 visited the Rookvllie Main POllt OfflC$ ('Rockville Main") loootGd <It GDO North
           Washington
           ascertain    Sireet,
                      who  was Rockville,
                                receiving main    208~6~()';9:9;Ga~';;'r~he~.,~pu;r;po~s~e;o;f;U~le~Vi~sl~t~w~as~to
                                              MD at
                           . At ths time of Agents'       tile Rockville                system was
           offline. Howevel', a latel' tElI(')pholle from                             Supervisor of
           Customer ServIce f>\t th9 Rockville Main, .IndIcated that two Individuals,              ·iiiiii.1iI
           _        and              ware receivIng mall at the aforementioned ar.ldrGss.

           3. A check of Amtl~k'll MySap system revoaled that _19 a _assIgned to
           Amtrak's High Speed RIIII (UHSR') faclilty (lt~ards ("Ymdg').l'lieoi was also
           .1lbJs to conflrm Illal_w&ls _ ' s spouse.

                                                                              ~O~I!I~~I that he and _
                                                                              •             thaI                    Is




           _tr
            Agenls ~lske~ to describe tile clrcum61ances surroundlno the eBay sale of the
           AGeIa hom. _otat~d that he priF11(llI'lIy worked the 7:00 6lm - 3: 00 pm shift durIng hla
                        9lning (9/07 - 2/08) at ths Yards, One day. at (lbollt noon, ~bserved ~
            pallet of Iferoo beside. the yard dumpster. : Tha pallet~ared to Contain' foils of wIre
            (not copper), Ilwltches, and ather olaolfot\lc Items. _
           taking what thoY wanted from the pIle. He _
                                                                          oboGlveci that peoplo Were
                                                                  belIeved the items to be garba~ja,
 (
           although he could not sp~clfically fQeall whether the stockroom employee who put tho
           items there IndI~ied ' such. Not unlIke ~veryone else, _heg~h to 'slft through tIle
    items on the pallet. He _        selected a dusty horn In a box. According to _       by the
    time he departed that afternoon, the pallet was almost empty. When he took the horn,
    he Initially Intended to use the horn on his personal vehicle, but later decided to sell it on
    eBay. _received $395 for the sale of the horn.

            Informed the 01 that, although the hotn was sold under _     screen name, his
          I     nothing to do with the sale. _nalntalned that he did not realize that the
         -was new until he looked Inside the box that contained it. When asked why he did
    not return It once he figured out that the horn was new, _Initially did not respond.
    _then stated that the horn was In the trash-, so he assumed that the "new" horn was
    trash.

    4. The 01 interviewed the following Alstom warehouse employees assigned to the HSR
    at the Yards:



    The 01 showed              a photocopied picture of the air hoi'll In question and asked
    whether he recognized this equipment.               aclmowledged that he did recognize the
    part and confirmed that it was an all' horn. However, according to                    Alstom
    provides over 3,500 parts to Amtrak, and he had no specific knowledge regarding this
    particular air horn. _Informed Agents that Alstom scraps obsolete materials, as
    well as, materials whose shelf life has expired: M, cables, rubber hydraulic hoses.
    When asked where the scrapped materials were maintained,                 stated that smaller
    bulk trash Is often put out back [south side). w.hile the larger scrap material Is put out In
    the front where supervisors park their vehicles. Finally,            advised that until such
    time as Alstom materials/parts are Issued to Amtrak, they are still considered Alstom
    property .



• •~.nformed Agents that that he did recognize the part In the eBay advertisement
as an all' horn. However, he had no knowledge of the disposal of the air horn by Alstom
employees.                       that trash pallets are normally set out.between Tracks 9
and 10 - South.           recalled that during the 2007 Thanksgiving or CllI'lstm<ts
holiday, the storeroom was going through a "cleanup" process, resulting In the disposal
of Item that were considered to be obsolete, Llsed or defective.



I           responsible for overseeing the HSR material warehoLise. When asked about
the process for material disposal,         stated that material Is Identified as trash, scrap
01' discontinued items are disposed of accordh.lgly. He took the position that Alstom
employees would not place 'trash" Items on a pallet and tell other employees, both
Amtral< and Alstom, to help themselves to those Items.                was shown the eBay
advertisement for the all' horn. After        s review, he stated that he did not recognize
the item (all' horn).

~".Informed Agents that all of the Items In the storell0use are considered to be
Alstom property until such time as the Item Is officially issued to Amtrak by being
Installed on a piece of Amtrak equipment. Items deemed "scrap" are processed and


                                                 2
 sent to Alstol11's "V" Street location for disposal. _      provided a copy of the Alstom
 Scrap Policy.



_         stated that his employees would not dispose of material or leave it out for other
Amtrak or Alstom employees to pick through and take for personal use.                stated
that If an Item is destroyed and cannot be repaired, it is labeled scrap and disposed.
             not aware of any Incident that occurred where Alstom employees took a pallet
   mAIArll,,1 wires and computer parts to a dock area and told Amtrak employees that
they could help themselves to the Items because said Items were trash.

The 01 showed _            the eBay Acela All' Horn sale. After        _"reviewI3d the
documents, he stated that he was familiar with Ihe all' horn.                  that he Is not
sure if the air horn Is used on Amtrak trains. According to             if the air horn was
thrown out, he should have known about it.



IIIII!~" advised that he has been involved in a lot of storehouse clean ups at the
HSR/Alstom Facility Storehouse since September 2007. While he does not recall seeing
an air horn, he acknowledged the possibility that an Item could have been mistakenly
discarded during one of these clean up exercises.

                                          ' ~I
                                         ,and.--,


6. On April 16, 2008, _responded to the Ol's Management Referral. He agreed to
amend Amtrak's current Asset Disposition Policy in light of the Ol's findings.

7. On May 2, 2008, _       responded to the Ol's Management Referral. Although, he
declined to pursue any action against _ _ met with _            and discussed the
gravity of the situation.                     .

RECOMMENDATIONS

In light of the aforementioned facts, the writer recommends that tilis case be closed with
no further action warranted.



Deputy Inspector Genoral/Counsel:      ----J.Q
                                            ...L¥=,r-- - D a t e : # t , ? - '




                                             3
